September 30, 2009

VINCENT H. DEVITO
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2009 – Negative Master Trust Account
         Balances (Report Number FF-AR-09-226)

This report presents the results of our audit of the negative master trust account
balances (Project Number 09BO002FF001). The report was initiated due to risk factors
identified in our Performance and Results Information Systems (PARIS) Cost and
Controls Model.1 This audit addresses financial risk. See Appendix A for additional
information about this audit.

Conclusion

As of April 30, 2009, master trust accounts2 with overall negative unit balances were a
small percentage of the U.S. Postal Service wide balance. However, because negative
balances reflect potential funds due to the Postal Service, our audit focused on units
with entirely negative account balances. Nationwide, the Postal Service had 40 units
with accounts showing negative balances in excess of $10,000, totaling $1,703,410.
Our audit disclosed that master trust accounts at 39 of the units, totaling $1.58 million,
erroneously showed negative balances because of improper accounting entries unit
personnel made and errors that occurred when units converted to the PostalOne!
system. Management made corrections totaling $1,024,529 as the result of our audit;3
however, they had not corrected $658,882 at nine of these units at the time we
prepared this report. In addition, one unit with a negative balance of $101,284 had not
provided sufficient supporting documentation in response to our request at the time we
prepared this report.

Master Trust Accounts Were Not Reported Correctly

Master trust accounts at 39 units erroneously reported negative balances totaling
$1,575,777. These negative balances occurred because:


1
  Previously known as the Financial Risk Model.
2
  Master trust accounts are accounts with which customers deposit funds for future postage.
3
  Employees made corrections totaling $20,000 at two units prior to us contacting them.
Fiscal Year 2009 – Negative Master Trust                                          FF-AR-09-226
 Account Balances


          Personnel at eight units made incorrect refunds from the Point-of-Service (POS)
           system because they were not aware of proper refund procedures. For example,
           personnel made refunds from both POS and PostalOne! rather than only from
           PostalOne!, causing negative balances in Account Identifier Code (AIC) 074,
           Special Provisions Locally Managed Trust Advance Deposits, totaling $228,069.4

          Personnel at two units recorded value added refunds in AIC 474, Special
           Provisions Local Trust Withdrawal, rather than in the correct AIC 541, Refund
           Value Added Service. Recording the refund in the incorrect AIC resulted in
           negative balances in AIC 074, totaling $64,954.

          Errors occurred at five units when they migrated into PostalOne!. Management
           had to transfer master trust account processing and accounting between units to
           accommodate PostalOne!. During this process, routing errors occurred, resulting
           in negative master trust balances totaling $486,435.

          Personnel at 10 units made incorrect entries when making deposits and/or
           withdrawals from trust accounts. For example, personnel made withdrawals from
           business reply mail/postage due accounts when they should have made them
           from Customer Permit Accounts. These errors caused negative balances in the
           unit’s trust account totaling $324,870.

          Errors at the remaining 14 units occurred due to a variety of unique errors, which
           did not fall into one of the four general categories above.

In addition, we noted that $45,990 in customer transactions at four units were posted
incorrectly or not posted at all, resulting in a misstatement of the customer balances.
We consider this amount recoverable revenue loss.5 Specifically:

          One unit entered a deposit of $19,641 into the wrong customer account. Unit
           personnel attempted to correct the error, which resulted in the correct permit
           holder receiving the deposit twice, but the original deposit was not reversed.
           This resulted in master trust accounts being overstated by $39,282.

          One unit made six refunds, totaling $3,807, using the POS terminal rather than
           PostalOne!; therefore, the funds were not deducted from the customer’s
           accounts.

          One unit initially managed trust fund accounts using a locally managed account
           because PostalOne! did not work when first installed at the unit. The technician
           failed to enter two transactions totaling $476 when PostalOne! was repaired.


4
    Customers did not receive duplicate refunds.
5
    Revenue collected for goods delivered or services rendered.




                                                           2
Fiscal Year 2009 – Negative Master Trust                                                             FF-AR-09-226
 Account Balances


       At another unit, one customer’s deposit of $2,425 was erroneously entered in the
        customer’s account twice.

In addition, personnel at one unit6 with a negative balance of $101,284 were unable to
provide us sufficient documentation regarding that balance by the time we prepared this
report. Therefore, we consider this amount unrecoverable unsupported questioned
costs.7

Postal Service policy requires unit management to comply with the prescribed financial
procedures, which include proper reporting of all financial transactions.8 Unit
management did not detect or correct these conditions because they did not monitor or
reconcile their master trust balances, which Postal Service policy9 also requires. In
addition, all unit personnel did not receive adequate training when the units migrated to
PostalOne!. The units have since received PostalOne! training. Failure to properly
enter and reconcile financial transactions increases the risk that the Postal Service
could lose revenue and misstate financial statements.

The Postal Service has identified reconciliation of master trust balances as a key
control. Consequently, we believe the Postal Service must improve its oversight of
master trust accounts to reduce the risk of financial loss. We identified $147,274 of
monetary impact, including $101,284 of unrecoverable unsupported questioned costs,
and $45,990 recoverable revenue loss.

We recommend the Vice President, Controller:

1. Develop a corrective action plan to ensure management effectively monitors master
   trust accounts and employees minimize and timely clear negative account balances
   should they occur. Specifically, this plan should:

       Require units with negative master trust balances to inform district Finance
        Managers of actions taken to correct this issue.

       Require units to sign off on a monthly reconciliation and forward to their
        respective district Finance Manager to show completion.

2. Provide the U.S. Postal Service Office of Inspector General (OIG) with
   documentation showing the cause and actions taken to correct the negative
   balances at the one unit that did not adequately respond to our request.



6
  Postage Due – xxxxxxxxxx provided an inadequate response.
7
  Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.
8
  Handbook F-101, Field Accounting Procedures (FAP), Section 2-4, January 2009.
9
  FAP Section 2-4.3.




                                                         3
Fiscal Year 2009 – Negative Master Trust                                        FF-AR-09-226
 Account Balances


Management’s Comments

Management agreed with our recommendation to develop an action plan but proposed
alternatives to certain elements of the plan. Specifically, management plans to
communicate to field offices specific instructions on handling negative balance customer
accounts timely through a Postal Bulletin article. Management intended to issue this
Postal Bulletin article on September 24, 2009. However, subsequent to our receipt of
their comments, management informed us they would publish this article by October 8,
2009. In addition, management issued communication to field personnel on September
25, 2009, emphasizing the reconciliation policy.

The unit that did not respond to our inquiry during the audit corrected its negative
balance and management will continue to monitor the unit. See Appendix B for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John Wiethop, Director, Field
Financial - Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Stephen J. Nickerson
    Bill Harris




                                             4
Fiscal Year 2009 – Negative Master Trust                                       FF-AR-09-226
 Account Balances


                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Master trust accounts are composed largely of advance deposits for permit imprint,
Periodicals, business reply, postage due, and Express Mail® accounts. The Postal
Service maintains separate accounts for each service by customer. These accounts
are commonly referred to as master trust accounts. The customer deposits funds into
an individual account and the Postal Service withdraws the funds when payment for
postage and fees is due. If funds are not on account, the customer is required to pay at
the time of the mailing. The Postal Service does not offer credit for postage and does
not permit a negative balance in a trust account.

Analysis of financial data as part of our continuous auditing initiative (PARIS Costs and
Controls Model) resulted in the identification of negative master trust accounts in units
nationwide.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine why negative master trust balances
existed at Postal Service units and to correct the negative status.

To accomplish our objectives, we judgmentally selected the 40 units with negative
master trust balances of $10,000 or greater as of April 30, 2009. The total negative
master trust balances at these 40 units was $1,703,410. There were an additional
1,115 units with negative balances totaling $730,186 on that date. As the table below
shows, the types and dollar values of negative master trust account balances at Postal
Service units we reviewed is small in comparison to the overall dollar value of master
trust accounts. However, negative amounts can reflect funds owed to the Postal
Service, thus potentially representing funds the Postal Service could collect.




                                            5
Fiscal Year 2009 – Negative Master Trust                                                                FF-AR-09-226
 Account Balances



                      Details for Negative Balance Master Trust Accounts

                                                                              Units With        Dollar Value
                  AIC                      Universe       Dollar Value        a Negative        of Negative
                                                                               Balance           Balances
 AIC 053, Business
 Reply/Postage Due Advance                     14,031         $182 million               229         $829,849
 Deposits
 AIC 070, Customer Permit
                                               12,262         $519 million               236         $321,625
 Account Advance Deposits
 AIC 074, Special Provisions
 Locally Managed Customer                     1,29110           $642,742                 694     $1,282,12311
 Accounts Advance Deposits

We issued letters to management at the selected units, requesting information
supporting the transactions that resulted in negative master trust balances. We also
asked unit management to take corrective actions if negative balances were the result
of erroneous accounting entries. We used Postal Service instructions, manuals,
policies, and procedures as criteria to evaluate internal controls and data reliability. We
interviewed supervisors and employees as needed.

We conducted this performance audit from May through September 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on August 20, 2009, and included their
comments where appropriate. Although we relied on data obtained from the Enterprise
Data Warehouse, we did not test the validity of the data and controls over the system
since it was not critical to our objective.




10
   Trust balances for Centralized Account Processing System accounts and the xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Services Store were not included.
11
   For AIC 074, the total negative balances are $1,283,123 and positive balances are $1,924,865, for a total dollar
value of $642,742.




                                                          6
      Fiscal Year 2009 – Negative Master Trust                                                              FF-AR-09-226
       Account Balances


      PRIOR AUDIT COVERAGE

                                                 Final
                           Report               Report              Monetary
  Report Title             Number                Date                Impact                   Report Results
Fiscal Year 2008        FF-AR-09-055           12/26/2008                $820,000       Financial installation capping
Financial                                                                               reports for post offices,
Installation Audits                                                                     stations, and branches and
– Post Offices,                                                                         business mail entry units
Stations, and                                                                           identified that master trust
Branches                                                                                account balances were not
                                                                                        monitored and reconciled.
                                                                                        Management agreed with the
                                                                                        findings, recommendations,
                                                                                        and monetary impact.12
Fiscal Year 2008        FF-AR-09-052           12/22/2008              $1.6 million
Financial
Installation Audit –
Business Mail
Entry Units
Fiscal Year 2008 –      FF-MA-09-001           10/10/2008           Not Reported        The master trust balance as
Negative Master                                                                         recorded in the Standard
Trust Balance at                                                                        Accounting For Retail differed
the Kansas City                                                                         from local accounting records
Stamp Fulfillment                                                                       by $18.9 million as of March
Services Store                                                                          31, 2008. Management
                                                                                        agreed with the findings,
                                                                                        recommendations, and
                                                                                        monetary impact.
Fiscal Year 2007        FF-AR-08-131           3/19/2008               $2.3 million
Financial
Installation Audits
– Business Mail
Entry Units



Fiscal Year 2007        FF-AR-08-122            3/5/2008               $2.1 million
Financial
Installation Audits
– Post Offices,
Stations, and
Branches




      12
        We identified master trust concerns in our annual fiscal year 2006, 2007, and 2008 Post Office and business mail
      entry unit reports – all listed in this table. Management agreed with the findings and recommendations in all cases
      and agreed to take corrective action.




                                                                7
      Fiscal Year 2009 – Negative Master Trust                                       FF-AR-09-226
       Account Balances



                                             Final
                         Report             Report           Monetary
  Report Title           Number              Date             Impact        Report Results
Fiscal Year 2006       FF-AR-07-094         2/20/2007       None Reported
Financial
Installation Audits
– Post Offices,
Stations, and
Branches
Fiscal Year 2006       FF-AR-07-090         2/15/2007       None Reported
Financial
Installation Audits
– Business Mail
Entry Units




                                                        8
Fiscal Year 2009 – Negative Master Trust                    FF-AR-09-226
 Account Balances


                        APPENDIX B: MANAGEMENT’S COMMENTS




                                           9
Fiscal Year 2009 – Negative Master Trust        FF-AR-09-226
 Account Balances




                                           10
